<html>
<title> - TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 2</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




        TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 2

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2017

                               __________

      Printed for the use of the Committee on House Administration


               
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
   
   
   
                                  ________
                       
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
28-270                           WASHINGTON: 2018
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001  
   
   
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


 
        TRANSFORMING GPO FOR THE 21ST CENTURY AND BEYOND: PART 2

                              ----------                              


                         TUESDAY, JULY 18, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:32 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Smith, Loudermilk, Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Cole Felder, Deputy 
General Counsel; Rob Taggart, Legislative Clerk; Bob Tapella, 
Professional Staff; Erin McCracken, Communications Director; 
Reynold Schweickhardt, Director of Technology Policy; Jamie 
Fleet, Minority Staff Director; Khalil Abboud, Minority Deputy 
Staff Director; Eddie Flaherty, Minority Democratic Chief 
Clerk; and Matt Pinkus, Minority Senior Policy Advisor.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing titled 
``Transforming the Government Publishing Office for the 21st 
Century and Beyond: Part 2.'' The hearing record will remain 
open for 5 legislative days so Members may submit any materials 
they wish to be included. A quorum is present, so we may 
proceed.
    Director Vance-Cooks, I appreciate your willingness to 
reappear today as we continue to fulfill our oversight 
responsibilities. When you testified in May, the Committee 
focused on several topics, and there have been a number of 
followup questions. While GPO responded to the questions--with 
1,100 pages of material, I might add--a number of them, we 
believe, need further clarification and in some cases more 
direct answers.
    I will keep my remarks brief to allow more time for 
questions and answers. However, I would like to take this 
opportunity to make a few observations that will help inform 
our discussion this morning.
    First, GPO in many ways operates like a private sector 
business wholly owned by the Federal Government. With the 
exception of administering the Superintendent of Documents 
program, GPO provides products and services to other government 
agencies and charges them for their products and services. Yet, 
I think it is fair to say technology has definitely impacted 
this business model. And while GPO has tried to transform 
itself, it has been hindered by many factors, including 
outdated statutes.
    Congress has long been concerned about the impact 
technological advances have had on GPO's mission. Over the 
years, a number of studies have been conducted and 
recommendations made to modernize GPO. However, none of these 
reports have really peeled back the layers of GPO to understand 
its operations in such a way as to make those meaningful 
reforms. And I look forward to seeing the clarification and 
additional information we need in order to start making those 
necessary reforms.
    Again, I would like to thank Director Vance-Cooks for being 
here today and her assistance in this effort.
    I would now like to recognize my colleague and the Ranking 
Member of this Committee, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady.
    [The statement of The Chairman follows:]

                            COMMITTEE INSERT

    Mr. Brady. Thank you, Mr. Chairman.
    I want to thank the Chairman for calling this hearing. And 
I want to thank the Public Printer, Davita Vance-Cooks, for 
making her third appearance before this Committee in just 6 
months. In her previous visits, I have found Ms. Vance-Cooks' 
testimony informative and forthcoming, and I think that 
demonstrates the leadership and skill set she brings to the 
Government Publishing Office.
    Today's hearing is an opportunity to dive deeper into GPO's 
response to a lengthy set of questions for the record that were 
sent after our previous hearing just 2 months ago. Hopefully, 
we will come away from today with a better understanding of how 
the agency operates in the 21st century and what resources it 
needs to continue the high level of performance we have come to 
expect from the Public Printer and the GPO.
    I am also happy to see our labor brothers here from the 
Teamsters that are here.
    Thank you for showing up. Thank you for your interest.
    And I yield back, Mr. Chairman.
    [The statement of Mr. Brady follows:]

                            COMMITTEE INSERT

    The Chairman. Thank you, Mr. Brady.
    Does any other Member wish to be recognized for the 
purposes of an opening statement?
    Seeing none, I would now like to introduce our witness. 
Davita Vance-Cooks became the 27th individual to direct the 
U.S. Government Publishing Office in 2013. Ms. Vance-Cooks is 
the first woman and African American to lead the agency and has 
served with a variety of management roles at GPO since you 
first arrived in 2004, I believe.
    And we welcome you back, Ms. Vance-Cooks.
    The Committee has received your written testimony and you 
will have 5 minutes to present a summary of that. And, of 
course, you know how the drill works on the timekeeping there, 
and the light will turn red when your time has expired.
    The Chair now recognizes Director Vance-Cooks for purposes 
of an opening statement.
    Ms. Cooks.

STATEMENT OF THE HONORABLE DAVITA VANCE-COOKS, DIRECTOR, UNITED 
              STATES GOVERNMENT PUBLISHING OFFICE

    Ms. Vance-Cooks. Chairman Harper, Ranking Member Brady, and 
Members of the Committee, good morning. Thank you for inviting 
me to join in the discussion of ``Transforming the GPO for the 
21st Century and Beyond: Part 2.''
    As I stated in my hearing May 17, 2017, on the same topic, 
the GPO is in a good place, a strong position to meet the needs 
of the 21st century and beyond. We are a publisher, a print 
broker, product integrator, and developer of digital 
information platforms. We are financially strong, with clean 
audited opinions, and we have worked hard to manage our costs.
    In Fiscal Year 2018, for the third year in a row, we 
submitted a flat funding appropriation request. We are using 
digital technology to make information more available, improve 
our products and services, provide better customer service, and 
strengthen our internal operations, while controlling our 
costs. And these actions benefit our stakeholders: Congress, 
government agencies, and Federal depository libraries.
    Over the decades, the GPO has been successful in using the 
framework of Title 44 to introduce new technology and implement 
new processes to accommodate and support changing stakeholder 
requirements. The most successful reform effort of the past 
generation was passage of a simple measure, the GPO Electronic 
Information Enhancement Act of 1993, codified in chapter 41 of 
Title 44, which gave us the authority to implement all of the 
digital innovations of recent years.
    To further strengthen the GPO for the 21st century and 
beyond, I propose a careful and thoughtful reevaluation of all 
chapters of Title 44, to ensure that Federal publications are 
produced as economically and efficiently as possible, that they 
remain permanently accessible to the public, and that such 
provisions reflect the shift toward digital, while respecting 
the role of tangible print.
    The review of GPO conducted by the National Academy of 
Public Administration at the request of Congress and released 
in 2013 found that the agency's mission remains critical to 
American democracy in the digital age. The evaluation of Title 
44 must preserve the substantive provisions of the law that 
enables GPO to effectively carry out its mission today, while 
addressing the need to revise the provisions that are no longer 
necessary in the 21st century.
    There are a number of provisions that over time have become 
obsolete simply because our stakeholders and GPO have changed 
the way in which we operate. For example, in chapter 11, there 
is actually a provision specifying the typeface that is 
required for an annual report, and clearly that is obsolete. 
Chapter 13 lists specific publications and the amount that we 
have to print, but the language in chapter 13 originates back 
to the act of January 12, 1895, and reflects the needs and 
priorities of the late 19th century.
    Today, the Office of the Secretary of the Senate, the 
Office of the Clerk of the House, and the heads of the 
agencies, they order printing in the requisitions for what they 
need, and that is why we publish the products requisitioned by 
our stakeholders in accordance with the specifications. This 
action allows us to meet the nature of the law.
    In terms of chapter 19, I have asked the Depository Library 
Council, the advisory committee to the Office of GPO Director, 
to work with the Federal depository libraries to identify 
changes. As a result of our multiple visits to the FDLP 
libraries and listening to their concerns about flexibility and 
permanent public access content, I would say that it is time 
for us to explore the option of grant-making authority for the 
GPO, so that we can support innovative digital initiatives in 
the library community. This is an exciting idea. We call it 
#FDLPGrants. We love the idea.
    In conclusion, GPO is strong. Conducted properly, a 
revision of Title 44 will make us stronger.
    Mr. Chairman, Members of the Committee, I conclude my 
remarks, and I am losing my voice.
    [The statement of Ms. Vance-Cooks follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Director Davita Vance-
Cooks, for your testimony, and your presence here today is 
greatly appreciated.
    At this time, rather than recognize myself, because I know 
he is going to be on a tight schedule, the Chair will now 
recognize the gentleman from North Carolina, Mr. Walker, for 5 
minutes.
    Mr. Walker. Thank you, Chairman Harper, for your 
indulgence. Much appreciated.
    Thank you again, Director Vance-Cooks, for being with us 
today.
    In the executive branch, procurements under $3,500 in value 
are considered micropurchases, something I am sure we are all 
aware of, and normally made using a Smart Pay card. GSA looks 
to, quote, ``total cost to the government,'' end quote, in 
assessing these micropurchases. And though the government 
doesn't get the absolutely lowest price possible for the 
product or service, the total cost for these micropurchases, 
including processing the procurement, is less than it would be 
if they were done through any other procurement vehicle.
    With this in mind, I would like to look at the 59,681 
micropurchase-level print orders that GPO processes through 
procurement, vehicles other than GPOExpress and the Online 
Paper Store. Now, by the math that some of our diligent people 
have worked on, the average micropurchase is $656.
    So here is my first question: How much does the GPO charge 
an agency to process this said $656 print order?
    Ms. Vance-Cooks. I would have to take a good look at that 
data and get back to you.
    [The information follows:]

                   ******** COMMITTEE INSERT ********

    Mr. Walker. Okay. Do you know how much it costs to process 
the order, including maybe the functions and the overhead, or 
is that something also that you need to do some research on?
    Ms. Vance-Cooks. I would need to do----
    Mr. Walker. Is your mike on there?
    Ms. Vance-Cooks. Pardon me. Excuse me.
    You are asking me about the cost of the micropurchases and 
how it compares to what GPO actually produces, and you are 
asking for the rate.
    I can tell you that overall and collectively the GPO's 
printing procurement process is much lower than it is available 
to procure it elsewhere. If you are asking me about the 
specifics of a particular product, I would have to get back to 
you to give you the actual rates.
    Mr. Walker. All right. Let's zoom out for just a second 
then, and let's talk about maybe a general question that would 
address both of these. Can you confirm that the GPO practices 
accurate and detailed cost accounting, yes or no?
    Ms. Vance-Cooks. I can confirm that we attempt to do so. I 
can also confirm that when you talk about or look at the 
hearing that we had back in May, I had identified a strategic 
priority of implementing a brand new cost accounting system. 
This is because I recognize that we need to do a better job of 
cost accounting. In fact, it is listed as one of the items in 
the IG report. So I can definitively say that it is something 
we should work on, but I think it is better than other areas as 
well.
    Mr. Walker. You say something that we should work on. Do 
you feel like there is an implementation process? Are you 
making some progress in that area?
    Ms. Vance-Cooks. Oh, absolutely, yes, we are. In fact, we 
are in the process of working with an outside vendor to improve 
our cost accounting process.
    You are so right, Congressman Walker, when you talk about 
cost accounting as a measure in which we must improve. We have 
identified that over and over again, not only in our IG 
reports, but also in our strategic priorities. And it is 
definitely on the list.
    Mr. Walker. Thank you. You also testified previously that 
there are 106 employees directly involved in print procurement 
at GPO central and regional offices and another, I believe, 44 
full-time equivalents in finance that support commercial print 
procurement.
    In reviewing the volume and scope of printing procured from 
the private sector--of course, this is excluding GPOExpress and 
the Online Paper Store, that are, I believe, relatively 
automated and electronic--these are some statistics that we 
have come up with.
    Of the nearly 70,000 orders, 86 percent were low-dollar 
value, averaging only about $600 each. For high-value orders, 
though, I certainly understand the importance of having GPO's 
printing professionals offering guidance as a service to the 
agency, and ultimately we believe benefits the taxpayer.
    However, I have a hard time understanding or trying to 
figure out the value of the GPO hand-processing basically what 
comes to 60,000 low-value orders. If you could take a minute to 
explain the value of having your 106 print procurement 
professionals hand-processing--hand-processing--nearly 60,000 
low-dollar value jobs, which is roughly 563 jobs per 
professional staff member. Would you address that, please?
    Ms. Vance-Cooks. Sure. You are talking about the numbers of 
106, but if you look at that chart again, you will see that it 
is separated by central versus regional. And you will see that 
there are more employees in the regional office, and that is 
because they are processing lots of small-dollar orders. But 
there are fewer people in the central office because they, in 
fact, are dealing with the larger orders, which, you are 
correct, don't require as much hands-on. But it is the smaller 
orders in the regions that require all of the people.
    Mr. Walker. Thank you. I do not have time to get to my 
third question, Chairman Harper, but I would like to submit a 
question specifically on QFR #27, if I could.
    The Chairman. Go ahead and ask that last question.
    Mr. Walker. Okay. All right.
    Basically, I would like to turn your attention to QFR #27. 
The Committee requests the 2016 W-2 earning for all GPO 
employees, ranked from highest to the lowest. Using 1,700 
employees as the basis, I was surprised, as among several of 
our staff members, Committee staff members, to learn that 34 
percent--34 percent--of GPO's employees took home more than 
$100,000, and 60 percent took home more than $80,000.
    If you look at companies that do business with GPO in the 
Metropolitan D.C. area, including both Maryland and Virginia, 
since they are within the geographic employment region of GPO's 
North Capitol Street printing factory, we could probably make a 
reasonable comparison. So quickly, these three.
    Have you compared GPO wages to these private sector 
commercial printers, basically, these companies who currently 
produce work for GPO? Have you had a chance to do that?
    Ms. Vance-Cooks. Have we had a chance to compare our wages 
to what the----
    Mr. Walker. To the private sector, those that do the same 
kind of work there.
    Ms. Vance-Cooks. We have not, no.
    Mr. Walker. Okay. Have you ever benchmarked GPO's 
operational efficiencies to these GPO contractors?
    Ms. Vance-Cooks. I believe that we are extremely 
operationally efficient because we are Congress' printer, and 
most of the work that we are doing is for Congress. I believe 
that to compare us to the private sector printers does not take 
into account exactly how we manage our operations in support of 
Congress.
    Mr. Walker. And I appreciate that argument, Director Vance-
Cooks, but in the question, yes or no, have you had a chance to 
benchmark the operational efficiencies of GPO to the GPO 
contractors? Have you had a chance to do that?
    Ms. Vance-Cooks. We have not benchmarked the operational 
efficiency against the private sectors, but we have benchmarked 
the operational efficiency against prior years.
    Mr. Walker. Thank you.
    Ms. Vance-Cooks. And I can say to you that we have 
definitely improved in prior years.
    Mr. Walker. And I appreciate the transparency.
    One final part of this. Does GPO perform any benchmarking 
in its printing plant?
    Ms. Vance-Cooks. We do provide benchmarking in our plant. 
In fact, we have a number of certifications related to that. We 
are operationally efficient.
    I would like to take the time, if I may, to talk about how 
different we are from the private sector printers, because of 
the fact that we were created by Congress to be Congress' 
printer. That means that we have to make sure that we have 
overnight capability, which the private sectors do not. It 
means that we have to have a direct tie with the Congresspeople 
or Congressmen, which they do not. And it has to also make sure 
that we understand Congress' nature, their specific data 
requirements. We provide a secure facility for them. We have a 
lot of advantages for being the type of printer that we are, 
including our COOP redundancy, as well as the data management.
    The private sectors would not be able to take the data that 
we provide for you and that we produce for you to create the 
digital repository databases that we do for you, to ensure that 
it is, in fact, available or the information is available to 
the public. Private sector printers won't do that. That is what 
we are paying for. Thank you.
    Mr. Walker. Well, Director Vance-Cooks, I appreciate your 
transparency.
    And I appreciate the indulgence of the Chairman. I yield 
back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the Ranking Member, Mr. Brady, 
for 5 minutes.
    Mr. Brady. Thank you again, Mr. Chairman.
    Madam Printer, I am intrigued by your suggestion of 
providing grants to depository libraries as part of Title 44 
reform, and I am happy to know that the Philadelphia Free 
Library is a part of that and can be a part of that. Thank you. 
Can you tell me more about it?
    Ms. Vance-Cooks. Tell you more about the idea of the grant 
authority?
    Mr. Brady. Yes, how it works and what it does for them.
    Ms. Vance-Cooks. We are very excited about this. This is a 
brand new idea for us. And the reason we are thinking about and 
want to project or want to propose the idea of a grant-making 
authority is that with all of the visits that we have made to 
the Federal depository libraries, we have identified the fact 
that they have issues related to permanent public access to 
content, to flexibility, to a number of services, and they are 
trying very hard to deal with issues like digital scholarship 
and digital disruption.
    We believe that by having the ability to provide grants to 
them to develop digital initiatives is going to benefit the 
information dissemination to the public.
    And we believe that with the cost savings that we have 
incurred over time--because right now our appropriations is 
$117 million, several years ago it was $140 million--we believe 
that with those savings we can then turn around and grant funds 
to the Federal depository libraries to create wonderful 
initiatives that will improve our information dissemination.
    It will, in fact, support the fact that we understand that 
information dissemination is critical to the American public, 
and we are excited about it and we hope to hear from the 
libraries as well about it.
    Mr. Brady. Thank you. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The Chair will now recognize himself for 5 minutes for 
questions.
    Director Vance-Cooks, I would like to direct your 
attention, if I could, to QFR #6, in which you testified, 
quote, ``The assertion that it has been a quarter of a century 
since Title 44 has had a substantial review overlooks the fact 
that Congress amended Title 44 in 2014 when it changed the name 
of the agency to the Government Publishing Office.''
    Help me understand how a name change, how that constitutes 
a substantial revision to Title 44. And is it your testimony 
that the name change authorized GPO to deviate from its core 
mission?
    Ms. Vance-Cooks. First of all, the name change for the GPO 
from the Printing Office to the Publishing Office is major. It 
is major because for a very long time all the things that 
people thought about in terms of the GPO is print, they thought 
that all we could do is print, when, in fact, we are a partner 
with our stakeholders, including Congress, to make sure that we 
can manage the digital transformation.
    We have worked very hard with Congress, through our 
Legislative Bulk Data Task Force, to make sure we have bulk 
data available, to develop a digital repository with lots of 
information, about 1.6 million titles. We have, in fact, become 
a publisher. We even worked diligently and very hard to expand 
our product and services portfolio. We can produce eBooks, 
mobile apps. We can produce so many things that help our 
partners, our stakeholders, to become, in fact, a publisher.
    So we are a publisher. As far as we are concerned, that is 
major. But the important part related to this question is 
simply the fact that we believe that we should have, and as I 
stated in my opening remarks, a complete review of Title 44. We 
believe that all of those chapters need to be reviewed. And, to 
use your word ``substantive,'' it is because we need to 
separate the substantive from the minor changes.
    And we believe that those minor changes, sir, sometimes are 
a distraction. It is the substantive issues that keep us 
directed towards our mission, and our mission to produce 
publications and to publish for you are very significant.
    The Chairman. And I certainly understand that and 
appreciate your testimony. And certainly, your view, this was a 
very substantive change.
    Ms. Vance-Cooks. It was.
    The Chairman. It would appear that a substantive change 
should come through the Oversight Committee as well for future 
things as opposed to being inserted in language in a conference 
report in something. So that is one aspect of why we are here 
today, is to make sure that we are playing it in a way that it 
works. And so, in the future, we would expect that this would 
be something that would come through the Oversight Committee, 
not outside that. And so we would want to look at that as we go 
forward in the future.
    Now, one of the questions that I have, when you previously 
testified before Congress, this was the quote, said, ``GPO is 
transforming from a print-centric to a content-centric 
publishing operation. By 2023, we expect the organization to be 
fully rooted in a digital strategy, with a name change to the 
Government Publishing Office to fully reflect our expanded 
capabilities and to emphasize that we are not just an 
organization that prints ink on paper.'' That is it.
    So what I want to do is discuss the traditional role of a 
publishing house and, by extension, you as a publisher. So if 
you will just bear with me for a minute as I try to go through 
some thoughts that I had.
    Once a decision is made to publish a work, there are 
obviously several next steps.
    Ms. Vance-Cooks. Right.
    The Chairman. The author may be asked to improve the 
quality of the work and the staff will edit the work. 
Publishers often maintain a house style, and staff will 
copyedit to ensure that the work matches the style and 
grammatical requirements. Editors often choose or refine titles 
and headlines. It may also involve editing structural changes 
and requests for more information. Some publishers employ fact-
checkers.
    So because time is limited here, I am just going to ask if 
you would on these, if you could just reply yes or no on some 
of these.
    Does GPO edit for content work submitted by its customers?
    Ms. Vance-Cooks. We do not edit content.
    The Chairman. All right.
    Ms. Vance-Cooks. We publish content. I know, yes or no. 
Okay.
    The Chairman. Thank you.
    Does GPO copyedit every document submitted to GPO for 
publication, either in GPO's factory or procured from the 
private sector, to ensure that they conform to the style manual 
as issued under the authority of section 105 of Title 44?
    Ms. Vance-Cooks. We do not edit. We publish.
    The Chairman. Does GPO choose or refine titles and 
headlines of every document submitted by its customers?
    Ms. Vance-Cooks. Do we? No.
    The Chairman. Does GPO employ any fact-checkers?
    Ms. Vance-Cooks. We do not have anything to do with the 
content. We simply publish. So the answer is no.
    The Chairman. All right. Let me go on. I think I get your 
answer there. Let's move on to the next phase of publishing 
quickly.
    The design process prepares the work for printing through 
processes such as typesetting, dust jacket composition, 
specification of paper quality, binding method, and casing. The 
consideration of the reader experience often dictates many of 
the design qualities.
    Does GPO control the design process on every document 
submitted for printing or publication?
    Ms. Vance-Cooks. Not for every product, but definitely for 
some.
    The Chairman. Okay. And an example of some? What would be 
an example of some that you do?
    Ms. Vance-Cooks. We have a number of agencies that will 
submit documents to us through our graphic design area or 
whatever, and they would ask us to help design the content or 
design the format.
    The Chairman. My time is well expired, so I will now 
recognize Mr. Raskin for 5 minutes.
    Mr. Raskin. Can I just pass for one moment? I am preparing 
a couple questions.
    The Chairman. The gentleman will pass.
    Mr. Raskin. Thank you, Mr. Chair.
    The Chairman. And I will go to Mrs. Comstock for 5 minutes 
for questions.
    Mrs. Comstock. Thank you, Mr. Chairman.
    Turning your attention to QFR #15D discussing GPO's role as 
a government landlord, you testified that upwards of 15 percent 
of GPO's building space is leased, and you emphasized the 
necessity of this non mission-critical business.
    Could you just help us understand why making GPO a 
significant landlord is a positive impact when we already have 
GSA or the Architect of the Capitol, whose primary mission is 
to be a landlord? How does GPO fit into that and how is it 
different? What are the overlapping areas, if you could?
    Ms. Vance-Cooks. Sure. Thank you.
    We started to lease space in 2004, and the reason that we 
started to lease space is because we have a lot of it. We have 
about 1.5 million square feet in buildings 1, 2 and 3, and 
about 735,000 of that square feet is actually usable office 
space.
    We currently lease about 113,000 of it, and the reason that 
we are doing that is because we actually have the space to 
give. We lease that space at a market rate that is lower than 
what the current market rate is. In fact, it is substantially 
lower.
    We have been very transparent about this leasing with the 
Joint Committee on Printing, with the appropriation branches 
over the years, and also it was mentioned in the NAPA study in 
2013. In fact, in the Legislative branch language--it was a 
couple years ago, maybe 2012--they specifically stated that 
they encouraged the GPO to try to reduce their footprint by 
leasing the space.
    You see, many years ago we had about 8,000 employees. 
Today, we only have 1,710. And because of that and we have the 
space and because the agencies need space, they are looking for 
it, we offer it to them. It is really considered shared 
services. We get about $2.6 million a year from that, and we 
use that revenue to offset the cost of administration for the 
building.
    Only 16 percent of our budget is actually appropriated. And 
so that $2.6 million helps us to pay for lights, heat, things 
of that nature.
    So that is what we are doing with the leasing. I hope that 
answers your question.
    Mrs. Comstock. Thank you.
    Okay. Then on QFR #8, you testified that your visits to 
FDLP libraries over the past few years illustrated that many 
libraries are experiencing staff and budget shortages, and as a 
result libraries want GPO to provide expertise in a number of 
areas. And then you identified those areas, five areas.
    Again, can you explain how that----
    Ms. Vance-Cooks. Thank you so much for asking that 
question, because this is one of the most exciting parts of 
what we have been doing for the past few years.
    We have three stakeholders. We have Congress, we have the 
Federal Government agencies, and we have the Federal depository 
libraries. We interact every day with Congress. We interact 
every day with the government agencies. But up to this point, 
we have not really interacted as much as I would like with the 
Federal depository libraries.
    In fact, when I looked at the number of visits that we have 
made to the Federal depository libraries over the past 12 
years, there were some years where we actually didn't visit 
them at all. And I think, considering the fact that they are a 
critical component, a critical stakeholder, it is important for 
us to get out there and talk to them, because they certainly 
cannot come here.
    It was invaluable, because we learned so much. We learned 
about their issues with flexibility. We learned about their 
issues with permanent access to public content. We learned 
about their concerns about having services that GPO should 
provide, which we historically have not. For example, we are 
very keen on providing training for them, and they like that. 
We talked about web harvesting. We understand all the budgeting 
issues that they are having and the space problems.
    It is because of these visits that we have made, one-on-
one, talking to our constituents, talking to our stakeholders, 
that we are able now to be in a position to try to help. And 
that is why we have come up with the idea of a grant program.
    We would love to have a grant-making authority to allow the 
Federal depository libraries to bridge that digital divide, to 
have digital scholarship issues. And this is why we have done 
it. We are excited about it.
    So thanks for asking that one.
    Mrs. Comstock. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back.
    The Chair will recognize Mr. Raskin for 5 minutes.
    Mr. Raskin. Thank you for your courtesy, Mr. Chairman.
    And welcome to our distinguished witness.
    One question I have is about the House Appropriations 
Committee which asked you to develop a cost estimate for 
converting the Statutes at Large all the way back to 1789 to 
USLM language and then to post it online. And I am just 
wondering whether you think you were, indeed, going to be able 
to carry out this work and what the timetable for it might be.
    Ms. Vance-Cooks. We are definitely going to be able to 
carry out the work. The timeline is probably sometime in 2018. 
But I would like to use this time to talk about the fact that 
that is another example of how we are helping our stakeholder, 
in this case Congress, to bridge the digital divide, to ensure 
digital transformation, to make sure that we provide our 
constituents with access to the government information in 
whatever format is available.
    And so in terms of XML, in terms of USLM, our transparency 
and openness advocates love this stuff, because they can take 
the data, they can mash it up, and they can create other 
products. And this is how we are helping to advance the whole 
idea of keeping America informed. And, yes, we will be able to 
handle that.
    Mr. Raskin. Thank you.
    The Appropriations Committee, Madam Director, also 
recommends that the Library of Congress consult with you in 
development of a system to make CRS nonconfidential reports 
available to the public online. What are your views on doing 
this, and how feasible and practical an idea is this?
    Ms. Vance-Cooks. As I have stated many times, sir, we are a 
publisher. We are ready to publish the content. And so if they 
want us to do that, we can do it. And we are working on cost 
estimates as we speak, to make sure that we can do it 
efficiently and economically.
    Mr. Raskin. Very good.
    My final question is, you have got an annual financial 
audit, as I understand it, by KPMG, which is overseen by the 
Inspector General. So as long as you have been at the agency, 
has the GPO ever gotten anything other than a clean audit and a 
clean opinion on the state of its finances?
    Ms. Vance-Cooks. We have received a clean opinion every 
year that I have been in charge of the GPO.
    Mr. Raskin. Okay. Thank you for your hard work, and thank 
you for your testimony.
    Ms. Vance-Cooks. Thank you.
    Mr. Raskin. I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Raskin. The gentleman yields 
back.
    The Chair will now recognize Mr. Smith for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Director Vance-Cooks, for being here today 
and for your service to our country. If you don't mind, I want 
to get some clarification on some of the responses previous.
    In QFR #34, the Committee sought a better understanding of 
page rates, a charge for congressional work. And so I believe 
you had testified that calculating page rates was the total 
production cost divided by total number of printed pages by 
product, equaling the product page rate. Is that accurate?
    Ms. Vance-Cooks. Yes.
    Mr. Smith. Okay. So if you could help me understand this 
formula, and yes-or-no responses would be most helpful. Do you 
determine what equipment is used in the factory?
    Ms. Vance-Cooks. It is in the production cost. You know, 
the formula has production cost divided by the number of 
printed pages. Within that area of production costs are 
situations such as--I know I am not saying yes or no. I 
understand. It takes into account all of the items that would 
go into the production of that particular product, which would 
be labor, materials, equipment, and so on and so forth.
    Mr. Smith. So would there be other equipment that would not 
be used?
    Ms. Vance-Cooks. Well, not all equipment is used for the 
same type of product, sir, if that is what you are asking.
    Mr. Smith. Sure. But is there an accounting for all the 
equipment used within the factory?
    Ms. Vance-Cooks. There is an accounting for all of the 
equipment in the factory, in terms of overhead, and that would 
be a small overhead amount. But there is an accounting for the 
types of equipment that would be used for a particular product. 
Think of it as the fact that they would look at all of the 
production costs across the board and then for that particular 
product and divide by the number of printed pages of that 
product. And you are talking about a large volume of data, sir, 
that goes into the calculation of that rate.
    Mr. Smith. Okay. And then do you determine how much staff 
you employ plus their rates of pay?
    Ms. Vance-Cooks. When you say do I determine, I mean, that 
is factored in, because it is labor, material, equipment and so 
on and so forth, into the production cost. That is what is 
factored in.
    Mr. Smith. It would be at your discretion, though, what 
inputs would be in there, correct?
    Ms. Vance-Cooks. If you are asking whether or not the CFO 
determines what goes in there, the answer is yes.
    Mr. Smith. Okay. Do you determine the level of efficiency 
of the staff and equipment?
    Ms. Vance-Cooks. It is not that we determine the level of 
efficiency. It is expected. It is assumed. It is an assumption 
that is in the rate.
    Mr. Smith. Okay. And congressional work is charged the rate 
then that you determine?
    Ms. Vance-Cooks. Yes, it is. You are talking about the page 
rate. And if I may--I know, again, I am not doing the yes or 
no. I apologize.
    Mr. Smith. I try to understand that as well.
    Ms. Vance-Cooks. We haven't changed that rate in years. And 
the reason that we have not changed the rate or increased the 
rate in years is because we have been so efficient, which 
speaks to your earlier issue, that we haven't had a need to do 
so. And I am very proud of that.
    Mr. Smith. Okay. Now, given these various aspects of costs 
and those obviously that you oversee, let me ask just a few 
more questions about these areas under your control.
    Do you conduct any time or motion studies to calculate 
efficiency?
    Ms. Vance-Cooks. We don't necessarily do that as a part of 
our normal business. We should. I totally agree.
    Mr. Smith. Okay. Do you maintain accurate and detailed 
equipment utilization logs for all equipment in the plant?
    Ms. Vance-Cooks. That is a great question. And that refers 
back to my statement earlier with another Congressman, where we 
talked about the need for a cost accounting system, because I 
recognize--and I have recognized that for a while--that we need 
a much better cost accounting system. And it is listed as one 
of the strategic priorities. I mentioned it in our last 
hearing. And we are very close to having that, because that 
needs to be done. Good question. Thanks.
    Mr. Smith. I know that the Inspector General has offered 
various information. I mean, it sounds like maybe the Inspector 
General has identified the need for cost accounting, and you 
are saying that there is room for improvement there.
    Ms. Vance-Cooks. Oh my goodness, yes, absolutely. I think 
it is very important to recognize that when you are running a 
business like we are or a government agency and we are charging 
rates, it is important for us to make sure that our customers 
understand what is in the rates. And, as I mentioned earlier, 
we have developed page rates that have been in existence for 
years.
    But even the IG, even the plant operations employees and 
the management team have identified the need for us to have a 
much more robust cost accounting system. And once it is 
installed, I will be happy to show it to you.
    Mr. Smith. Well, I appreciate that.
    Ms. Vance-Cooks. Thank you. Thank you.
    Mr. Smith. I know that you have a lot of tasks to complete 
and a lot of information to process, and so I appreciate that.
    Mr. Chairman, I might defer to my second opportunity to 
continue unless I have enough time.
    The Chairman. If you have a followup, the chair will 
recognize you to continue.
    Mr. Smith. It is not really a followup, it is another 
question. It is followup, in the same vein, but it might take a 
little more time.
    The Chairman. If you can sit tight for just a minute. 
Thanks.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    And, Director Vance-Cooks, thank you for being here today.
    I want to see if you can help me understand a little bit 
about the official time, its usage, and the way that GPO 
reports the use of official time.
    As you know, or I hope you know, that official time has a 
specific statutory meaning under 5 U.S. Code 7131, which is 
part of the Federal Government's collective bargaining system. 
And if you could on these series of questions I have about 
that, if you could answer as clearly and succinctly as 
possible.
    Does GPO have any employees who take official time to 
conduct union business?
    Ms. Vance-Cooks. Yes.
    Mr. Loudermilk. Yes. How does GPO record the usage of the 
official time? Is it recorded as administrative leave?
    Ms. Vance-Cooks. It is recorded as union official time. It 
is on our webTA system. We have a webTA system.
    Mr. Loudermilk. So you are saying it is not recorded as 
administrative leave?
    Ms. Vance-Cooks. It comes under administrative leave-union 
time.
    Mr. Loudermilk. So it is, I mean, just to make sure I 
understand here.
    Ms. Vance-Cooks. Yes.
    Mr. Loudermilk. Is it reported as administrative leave or 
is it not?
    Ms. Vance-Cooks. It is recorded as union time.
    Mr. Loudermilk. Okay. You are not answering my question.
    Ms. Vance-Cooks. I was right. It is recorded as official 
time.
    Mr. Loudermilk. So you are saying you do not record it as 
administrative leave?
    Ms. Vance-Cooks. That is correct.
    Mr. Loudermilk. Okay. So, for the record, you are saying 
you do not record it as administrative. If you need to ask 
somebody, I understand that.
    Ms. Vance-Cooks. No, I did. Yes, I did.
    Mr. Loudermilk. Okay. So it is not recorded as 
administrative leave?
    Ms. Vance-Cooks. That is correct.
    Mr. Loudermilk. Okay. Well, I would like to call your 
attention to QFR #28, in which you testified on the 
administrative leave usage by individual employees who have 
used more than 1 month of administrative leave during each year 
from 2007 to present.
    In your testimony for the record it appears, which I have 
here, that in 2008, 2009, 2010 and 2013 there are several 
employees who took more than 1 month of official business 
reported as administrative leave.
    Ms. Vance-Cooks. Did it say that it was official business, 
or did it say that it was reported as official time?
    Mr. Loudermilk. These are reported as----
    Ms. Vance-Cooks. I think it said administrative leave.
    Mr. Loudermilk. Let's see. In 2008, official business 
reported as administrative leave.
    Ms. Vance-Cooks. I can't comment on 2008. I became the head 
of the agency in 2012. And I do know that we have worked very 
hard to limit official time. I do know that around 2010--no, 
2011 or 2012, we have a brand new system.
    Mr. Loudermilk. Okay.
    Ms. Vance-Cooks. And that brand new webTA system allows us 
to put the hours in as official time.
    I can also tell you that we worked very hard to reduce the 
amount of official time, as the union people sitting behind me 
will testify to.
    Mr. Loudermilk. Well, if you will, in 2013, it is also a 
report of official business reported as administrative leave.
    Ms. Vance-Cooks. Then that would be around the time that we 
had the new system put in. But we do have a system to record 
the official time correctly, if you are talking about official 
time in reference to the unions.
    In fact, let me just talk a little bit about that, if I 
may, or do I have time?
    Mr. Loudermilk. Sure.
    Ms. Vance-Cooks. Sure. The official time for the unions, we 
used to have 100 percent official time for some of our union 
representatives, and we realized that that was not necessary 
anymore because we don't have as many employees as we used to. 
As I mentioned earlier, we used to have about 8,000 employees, 
where in some cases, I presume, 100 percent official time was 
necessary. But right now, we have very--in fact, we completely 
eliminated 100 percent official time.
    Mr. Loudermilk. Can you explain, so I can understand and 
the Members of the Committee understand, when someone uses 
time, official time, for union business, how specifically do 
you record that and report that?
    Ms. Vance-Cooks. Sure. My understanding--and I will go back 
and double-check--is that when they record official time, it is 
recorded in our webTA as official time. And in order for them 
to receive official time, Congressman, they must ask their 
supervisor for it. They cannot simply take it.
    And in addition to that, they must go through our Labor 
Relations Department to make sure that it is truly official 
time. You cannot simply just take the official time and record 
it. It has to go through a review process.
    Mr. Loudermilk. So you are saying that even though it has 
been done in the past--and this may answer why there are 
discrepancies in the reporting from GPO, which is greatly 
concerning to me, because in 2008, 2009, 2010 and 2013, there 
are several employees that took official time to conduct--or 
official time reported as administrative leave. So I am 
assuming that they did conduct union business during that time.
    Ms. Vance-Cooks. And, sir, as I have said before, I really 
can't explain what happened in 2008, 2009, and 2010.
    Mr. Loudermilk. Okay. Well, then 2011, 2012, 2014, with 
2013 being skipped, 2015 and 2016, there is no report of that 
being.
    Ms. Vance-Cooks. Right.
    Mr. Loudermilk. So that may account for that discrepancy.
    I see I am out of time, Mr. Chairman. I can follow up with 
this or----
    Ms. Vance-Cooks. I will be happy to follow up with you on 
that, okay. Thank you.
    Mr. Loudermilk. I may defer to the second round of 
questioning so I can finish with this.
    The Chairman. That will be fine. The gentleman yields back.
    The Chair will now recognize the Vice Chairman of the 
Committee, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Chairman.
    And thank you, Director Vance-Cooks, for being here today. 
This is your third appearance before the Committee this year, 
and in each appearance your testimony has included prepared 
remarks that reference constant dollar valuation as a benchmark 
for congressional printing expenses.
    Would it be accurate to conclude that you believe using the 
constant dollar calculation is a fair way to benchmark costs on 
a year-over-year basis, yes or no?
    Ms. Vance-Cooks. Yes.
    Mr. Davis. Okay. I agree with you. A constant dollar 
calculation considers inflation to determine what something 
should cost years before or in many cases years later.
    Director Vance-Cooks, you often benchmark against Fiscal 
Year 1980, because that is when GPO introduced electronic 
information technologies into the printing plant. So using your 
preferred benchmarking formula and your preferred benchmarking 
date, I researched what GPO charged Congress to produce the 
printed Congressional Record. Do you know what the page rate 
charged to Congress for the printed Congressional Record was in 
Fiscal Year 1980?
    Ms. Vance-Cooks. I do not.
    Mr. Davis. I didn't know either, but the House Library 
found GPO's budget submission in the serial set, and the page 
rate GPO charged Congress was $107.20. And using your preferred 
constant dollar valuation formula, a page of the Congressional 
Record printed using Fiscal Year 1980 prices as that benchmark 
should cost $337.52 today.
    Director Vance-Cooks, can you tell me what GPO charges 
Congress today for a page of the printed Congressional Record?
    Ms. Vance-Cooks. My CFO is behind me. May I ask him, or I 
can get it for you for the record, or do you have it?
    Mr. Davis. I have got it.
    Ms. Vance-Cooks. Okay. Go ahead.
    Mr. Davis. See if your CFO actually agrees with me. It is 
$929, nearly three times the benchmark.
    Is that correct, Mr. CFO, Ms. CFO?
    Ms. Vance-Cooks. He is back here.
    Mr. Davis. That is correct. So it is $929.
    The introduction of technology over the past 37 years has 
significantly reduced the cost of printing in the private 
sector, but not at GPO. Even accounting for inflation, the cost 
of printing in your plant has increased threefold when it comes 
to us, when it comes to Congress, and others.
    So explain this to me. It doesn't make sense.
    Ms. Vance-Cooks. Okay. I think the best way to explain it 
is in terms of the fact that the page rate reflects what it 
takes to produce the Congressional Record. And I think the 
other way to look at it is in terms of what is the 
appropriation that we request. You see, right now we are only 
requesting an appropriation from Congress of about $79 million. 
This is significantly less than what we requested back in 1980, 
in terms of constant dollars.
    So what I am looking at is, what are we asking you for 
appropriations? You are looking at the page rate, I understand, 
but what is the total value of what we are asking? And the 
total value of what we are asking in comparison to 1980, in 
constant dollar terms, is 70 percent less than what we asked at 
that time. That is significant.
    Mr. Davis. But also using constant dollars, you are 
charging Congress per page three times as much as you would 
when taking into account the constant dollar cost today versus 
Fiscal Year 1980. My point is, numbers add up, and we want to 
make sure that we are getting the best deal for us.
    Ms. Vance-Cooks. Sure.
    Mr. Davis. And regardless of appropriations requests. We 
are not the Appropriations Committee. I think that is something 
we can take up with them. Obviously, we all have our concerns 
about the appropriations process and whether it works and 
whether it is not, and frankly, we can address that.
    But in this case, when you come in front of our Committee 
and use terms like constant dollar, and then we do the 
calculations and it is three times as much as what it should 
be, I have got a problem with that as a Member of this 
Committee, Director, and I think it needs to be taken seriously 
and addressed by the GPO in the future.
    And one other question. Help me understand the GPO's 
Revolving Fund, because you mentioned appropriations. GPO's 
activities are financed through the Business Operations 
Revolving Fund, which is established in section 309 of Title 44 
U.S.C. and reauthorized annually.
    When Congress established the Revolving Fund in 1953 with 
$1 million of investment capital, it was expected the GPO 
Director, through the authority to set prices, would 
continuously provide working capital for the GPO. The GPO is 
expected to capitalize at fair and reasonable values the 
current inventories, plant and building--this is a word I have 
had trouble typing and saying--appurtenances, except building 
structure and land and other assets of the Government 
Publishing Office.
    Further, the Revolving Loan Fund shall be reimbursed for 
the cost of all services that include charges for overhead and 
related expenses, including the depreciation of these assets.
    Is this correct, yes or no?
    Ms. Vance-Cooks. Yes.
    Mr. Davis. Thank you.
    Director, I now draw your attention to QFR #57, in which 
this Committee requested that you update the 2013 NAPA report 
with actual numbers for Fiscal Year 2014 and Fiscal Year 2016 
and revised projections for Fiscal Year 2017 through Fiscal 
Year 2020.
    And at the bottom, under agency profit-loss, you have 
recorded the following actual cash value available for 
investment: Fiscal Year 2014, $33.399 million; Fiscal Year 
2015, $35.375 million; Fiscal Year 2016, $37.132 million.
    And you forecast for Fiscal Year 2017, $60.115 million; 
Fiscal Year 2018, $61.762 million; Fiscal Year 2019 it begins 
to go down, $52.341 million; and in Fiscal Year 2020, it goes 
down substantially to $32.222 million.
    In GPO's Fiscal Year 2018 budget you request an injection 
of $8.54 million for GPO's Revolving Fund, which you project 
will already have $61.762 million available for investment.
    Director, when GPO was faced with financial distress over 
the years it might have made sense for Congress to inject some 
working capital into the Revolving Fund. Given these 
astonishingly high amounts of cash available for investment, 
help me understand why Congress should continue to give scarce 
resources to the GPO, because by the numbers presented, it 
doesn't appear that you need extra working capital. Am I 
missing something?
    Ms. Vance-Cooks. Actually, what you are talking about is 
the fact that we have cash that is obligated for capital 
investments for the digital transformation to support Congress. 
It is our cash that is used for just about everything. And if 
you would like, I can go ahead for the record and submit all 
the different parts that are obligated.
    [The information follows:]

                   ******** COMMITTEE INSERT ********

    Mr. Davis. I would love to see that. But with the cash 
infusion, will the cost, the constant dollar cost per page for 
Congress go down?
    Ms. Vance-Cooks. It is our hope and it is our intent that 
as we move towards more and more of a digital operation, in 
concert with Congress as a stakeholder, that eventually the 
cost will go down, because the whole idea is that when you move 
to digital there should be less cost.
    But what we are finding is that the startup of getting into 
a digital environment is expensive. Congressman Harper knows 
that I had to come to him several years ago and get permission 
to buy a ZMR press, $7 million.
    We are buying digital equipment. We are implementing 
digital processes. And a lot of those items, a lot of that 
cash, is obligated to specific projects that help us to help 
you to become more digital.
    But I certainly understand your point about making sure 
that the page rates reflect----
    Mr. Davis. Director, I appreciate your comments and your 
answering our questions. Obviously, this is a concern for us in 
this Committee. We too agree and we see in our own office 
budgets that going to more of a digital process lowers our 
cost.
    Ms. Vance-Cooks. Sure.
    Mr. Davis. But, frankly, we don't have the ability then to 
upcharge our clients to make up those costs. You know, I 
started working for the U.S. House as a staffer in 1997, 20 
years ago. It was the first internet access I had. The cost of 
printing and publishing back then was substantially higher to 
our budgets.
    Now, we are not seeing that reduction in our cost, 
Congress, to the GPO that we use, because our rates are 
continuing to go up. That is a concern for me and a concern for 
the taxpayers that I represent. And I would hope that as we 
have future hearings, we can get those concerns addressed.
    Ms. Vance-Cooks. Absolutely. Thank you.
    Mr. Davis. Thank you.
    The Chairman. The gentleman yields back.
    How is that printer working, by the way, Director Vance-
Cooks?
    Ms. Vance-Cooks. It is wonderful.
    The Chairman. Good.
    Ms. Vance-Cooks. And we are just so pleased with it. And it 
has allowed us to reduce our cost, though you might disagree, 
but it has also allowed us to reduce the amount of waste that 
we normally would incur with other machines. Thank you so much 
for that.
    The Chairman. I just have a couple of followup questions 
based on what we have heard. And I will give the opportunity to 
other members to follow up as well.
    Earlier, Mr. Walker asked you whether GPO practiced 
accurate and detailed accounting, and I recall your answer 
being that we should be doing that. And so, you know, that is a 
big difference from, say, a yes.
    So the question is, can you explain that so I better 
understand what GPO is doing?
    Ms. Vance-Cooks. Sure. He was referring to a cost 
accounting. We have a legacy system for cost accounting. I am 
going to be very blunt about that. And because it is a legacy 
system, we have recognized the need to improve. We need a brand 
new system.
    The Chairman. So what kind of timeframe are you on for that 
new system, and what is that new system?
    Ms. Vance-Cooks. That new system, I can talk to you offline 
about the name of the vendor that we have contracted with.
    The Chairman. Sure.
    Ms. Vance-Cooks. But we are looking at about 18 months to 2 
years before it will be put in place, because we have to make 
sure that we are developing the correct specifications. It is a 
very complex project, but it is one which I believe should be 
at the top, a strategic priority.
    The Chairman. Are you satisfied, as the Director, that that 
is the direction you need to go that will address those 
concerns you have?
    Ms. Vance-Cooks. Absolutely. Absolutely. I believe very 
much that the questions related to how much it costs to produce 
something is appropriate. And it is important for me to be able 
to give you real-time data. But I have to admit that our 
systems are legacy systems and we need to change it. Again, 
that is part of the cash.
    The Chairman. And, of course, so many of our questions are 
necessary because of the QFRs, as we try to dig down and 
understand those. And so it takes a while to digest over a 
thousand pages of information. We just want to be accurate and 
give you a chance to clarify where we need.
    And so one question I had was QFR #56A, which asked about 
GPO's losses of nearly $1.5 million and just over $3.2 million 
of revenue in GPO's Publications and Information Sales Business 
Unit. You testified in your plans for the Business Unit going 
forward, quote, ``Cut costs by greatly reducing mandated 
inventory stock levels.''
    Can you just very briefly help me understand what these 
mandated inventory stock levels are, and who makes that 
mandate?
    Ms. Vance-Cooks. Sure. I love this question, because the 
P&IS area is one that is near and dear to my heart, because I 
used to manage it.
    Publications and Information Sales, the best way to think 
about this department is think of Barnes & Noble. It is sort of 
like a Barnes & Noble. It is responsible for selling the 
products that we produce on behalf of the Federal agencies and 
Congress. That is what it is supposed to do.
    Once upon a time, sir, it generated about $80 million, and 
right now it is in a loss, it is in a tailspin. But it is a 
mandated department, and I think it is section 1902. We are 
required to do this. And there are a number of factors that are 
contributing to the loss, including mandated inventory. These 
would be publications that have been determined that we must 
keep and we have to keep a certain level. But as you know, from 
a financial standpoint, that is an expense to our bottom line.
    The Chairman. So if--and I will let you finish--but if, in 
fact, they are mandated, how do you reduce the stock levels?
    Ms. Vance-Cooks. Well, that is the point, we can't. And 
that is what I am trying to say. We really need to reduce those 
mandated inventories, especially given the fact that no one is 
buying them. They are just sitting on the balance sheet and it 
is costing us.
    The Chairman. Just so you recognize our intent, our intent 
is to work with you going forward as we look at how we can 
improve on Title 44, okay? And so we are going to be--and you 
probably will get tired of me--but we will want to sit down and 
visit, make sure we are going in the right direction, we are 
all on the same page.
    Because I know that the goal here is for everybody to make 
GPO everything that we all know it can be and to work with you 
in that process. And if there is an issue, we want you to let 
us know, okay?
    Ms. Vance-Cooks. Thank you.
    The Chairman. And so at this time, I will recognize Ranking 
Member Mr. Brady if he has any followup questions in response 
to that.
    Mr. Brady. Yes. Thank you, Mr. Chairman.
    You have been digitizing the historical issues of the 
Congressional Record?
    Ms. Vance-Cooks. Yes.
    Mr. Brady. How is that project going?
    Ms. Vance-Cooks. It is great. It is going very, very well. 
We have digitized all the way back to the 1950s. We just 
released that. And in the first week in August we will release 
the 1940s.
    Mr. Brady. What makes it historic?
    Ms. Vance-Cooks. What makes it historic?
    Mr. Brady. The age of it?
    Ms. Vance-Cooks. Yes, sir.
    Mr. Brady. When I make a 1-minute tomorrow, it won't be 
historic?
    Ms. Vance-Cooks. I am sorry, what did you say?
    Mr. Brady. When I do a 1-minute tomorrow, it won't be 
historic?
    Ms. Vance-Cooks. We are so proud of that initiative, 
because our whole intent is to make sure that the information 
is available to the public. And the Congressional Record is one 
of the key documents in the government. And to be able to 
digitize it and to have it available for online researchers, 
for children in schools, is just phenomenal. And so much has 
happened during those years, the fifties and the forties. So we 
are pretty excited about it.
    Don't forget, we are also digitizing the Federal Register 
as well.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    I will now recognize the gentleman from Nebraska, Mr. 
Smith, for any followup questions that you may have.
    Mr. Smith. Thank you.
    Thanks again for your time.
    Director Vance-Cooks, QFR #29 and #30, I believe you said 
that multiple studies have shown that it is more cost-effective 
for agencies and the taxpayer to contract out printing that is 
deemed to be procurable, for example, printing not immediately 
required for agency use or otherwise not sensitive or 
classified, than it is to produce in agency printing plants. Is 
that accurate?
    Ms. Vance-Cooks. Yes.
    Mr. Smith. Okay. You describe many reasons why 
congressional printing should not be procured from the private 
sector, including, quote, ``being unable to identify the best 
procurement vehicle that could be used for each order from the 
private sector.''
    So if you could help me understand, it seems that on the 
one hand there is a suggestion that every Federal agency should 
be using GPO's expertise to procure their printing from the 
private sector; yet, on the other hand then, the same GPO 
printing procurement experts are unable to identify the best 
procurement vehicle for any congressional work.
    Can you elaborate on that?
    Ms. Vance-Cooks. Sure. I would like to address it in two 
ways. The first is the purpose of the congressional printing 
and the purpose of GPO as the printer for congressional 
publications, and then we will talk a little bit about the 
different products that are available, okay?
    In terms of GPO, GPO is the congressional printer. We are 
the printer for Congress. We were set up in such a way to 
support Congress, because Congress has a unique schedule. You 
need overnight capability. You need secure facilities. You need 
to make sure, or we need to make sure for you, that the data 
that we produce is managed properly, in concert with the other 
government agencies that use the data.
    We also need to make sure that the data that we produce 
goes into our digital repository, which in this case is called 
FDsys/govinfo. That information has about 1.6 million titles, 
which we grow every day.
    All of that information, all of those services that we 
provide are critical to Congress. So in order for us to think 
about procuring some of the products for Congress, you are 
going to lose all of those benefits, not to mention the cost as 
well.
    The second part has to do with the different products. You 
listed the SPA, the term contract, GPOExpress, and so on and so 
forth. If you really want us to go in and take a look at which 
of those procurement vehicles would be worthwhile, we can do 
that, but it takes away from the fact that we are the printer 
for Congress and we are designed specifically to handle all of 
the unique requirements of Congress.
    But the SPA, for example, only goes up to $10,000. A term 
contract requires something that is of a repetitive nature, and 
some of those items might work, but then you would have to deal 
with which vendor are you going to use.
    Our job as your printer is to make sure that we are making 
everything easier for you. And to go back to what the 
Congressman said, we have to make sure that it is cost 
appropriate and cost-effective. So that is my answer.
    Mr. Smith. So some of these products that are not time-
sensitive or classified or even sensitive, is there an avenue 
for giving the best cost on this?
    Ms. Vance-Cooks. Yes. As I mentioned a few minutes ago, we 
could talk to the ordering entity and ask, for example, if you 
want to have another vendor produce your envelopes, for 
example, or to produce something else. We could do that. I just 
want to make sure that everyone is aware of the different 
vehicles and what they are supposed to be for.
    And I also want to stress over and over again the wonderful 
work that we are doing to support Congress and the unique 
requirements of Congress. I just don't want us to lose sight of 
the fact that we are here to be the printer for Congress and 
that the procurement work is for the government executive 
agencies. That is kind of what I am trying to explain. I hope I 
am----
    Mr. Smith. Well, I appreciate that.
    Ms. Vance-Cooks. Okay.
    Mr. Smith. QFR #36, the Committee requested information 
about the page rate for congressional hearings. And so the May 
17 House Admin hearing--obviously, you testified--has a 
transcript that is approximately 39 pages long. The QFR request 
is approximately 13 pages. Your prepared statement is 
approximately 11 pages. Your responses to the QFR request run 
over 1,100 pages.
    How much will GPO charge to compile--about how much would 
you say that GPO will charge to compile and print the record of 
this important oversight hearing?
    Ms. Vance-Cooks. I have no idea, but I can get back to you. 
It is a good question.
    [The information follows:]

                   ******** COMMITTEE INSERT ********

    Mr. Smith. Okay. Obviously, we want to be good stewards of 
taxpayer dollars. I think you do too as well. So I appreciate 
that.
    Ms. Vance-Cooks. Guess what, let's talk about that for just 
1 minute. Because we were sensitive about how many pages, we 
sent this electronically, okay? All right. And it was 10 files 
long, okay? Ten separate files. Just a little plug for digital. 
Okay.
    Mr. Smith. All right. Thank you very much.
    Ms. Vance-Cooks. You are welcome.
    Mr. Smith. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The Chair will now recognize Mr. Raskin for any followup 
questions he may have.
    Mr. Raskin. Mr. Chair, thank you.
    I just wanted to follow up on the line of questioning that 
Mr. Loudermilk had begun about the official time thing. I 
wasn't aware that this was an issue. But if I understand your 
responses correctly, the official time was being designated as 
administrative leave before you got there and then it changed 
after you arrived?
    Ms. Vance-Cooks. It sounds like it, and I am going to 
double-check that. I mean, I have been at the GPO since 2004, 
but I became in charge of it in 2012.
    I do know that official time was, in fact, an issue for us 
and we worked very closely with the unions to make sure that we 
could record it correctly, that they would work with the Labor 
Relations Department to make sure that it was requested 
appropriately. And we did reduce 100 percent official time.
    Mr. Raskin. Got you. It sound like you have instituted a 
set of procedural steps that have to be met before official 
time----
    Ms. Vance-Cooks. That is right.
    Mr. Raskin [continuing]. Is actually taken by the union. 
And are you satisfied that it is working well in the workplace 
now?
    Ms. Vance-Cooks. I am very satisfied. I really appreciate 
working with the unions. As I mentioned earlier, they are 
behind me.
    We could not have done as much as we have done in terms of 
digital transformation without them. They have worked very 
closely with us, and they understand the importance of making 
sure that we move the GPO forward. So I don't have any issues 
with them, and they don't have any issues with what we are 
accomplishing either. Great partners.
    Mr. Raskin. Terrific. Thank you for your service and your 
hard work.
    And I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The chair now recognizes the Vice Chairman of the 
Committee, Mr. Davis, for any followup questions he may have.
    Mr. Davis. Thank you, Mr. Chairman.
    And thank you again for answering the questions. You 
mentioned the appropriations process before. Correct me if I am 
wrong, your appropriation that is appropriated to the GPO is 
kind of drawn down upon based upon the number of requests that 
you get from Congress or other officials, correct?
    Ms. Vance-Cooks. That is correct.
    Mr. Davis. Have those appropriations been drawn down then 
less over the last few years because Congress is making less 
requests of the GPO?
    Ms. Vance-Cooks. The appropriations, it is not so much they 
are drawing down less, it is just that we can only access the 
revenue when we complete the job.
    Mr. Davis. Right. Are there less requests coming from 
Congress----
    Ms. Vance-Cooks. Sometimes, yes. Sometimes, yes.
    Mr. Davis [continuing]. On an annual basis? So 
substantially less, 20 percent, 30 percent?
    Ms. Vance-Cooks. I can provide the data for you.
    [The information follows:]

                    ********COMMITTEE INSERT********

    Ms. Vance-Cooks. And it is very interesting, though, 
because it goes according to the year, in other words, whether 
it is an election year or things of that nature.
    Mr. Davis. When new Members come in, it is a little higher 
because we all need those franked envelopes, right? It is kind 
of cool to see the signature on there.
    Ms. Vance-Cooks. I will get back to you on that.
    Mr. Davis. All right. Thank you.
    But that is where you see the ups and downs? Overall, you 
saw less of a need of continuing to buy certain materials over 
the years. Therefore, you have drawn down less. Therefore, your 
appropriation is less.
    Ms. Vance-Cooks. That would be some of it, yes. Then, of 
course, we use the CP&B funds for other things. For example, we 
use it for your COOP exercises, because you gave us permission 
to do so. We are using it for some of your special projects, 
like the Hearing Modernization project. You gave us permission 
to use that. And it is very important that we work closely with 
you to make sure that those dollars are used appropriately.
    Mr. Davis. Okay. I mean, those are very good programs to be 
able to take those dollars and contribute them to, and thank 
you for doing that.
    I have got a question, though, about the Federal Depository 
Library Program. In your last hearing, we actually discussed 
that. And I would like to get some clarification on just a few 
of your responses.
    In QFR #8 regarding what you learned during the FDLP 
library visits, you testified, quote, ``Agencies do not submit 
or are not aware that they must submit documents to GPO for 
dissemination to depository libraries, and this is a concern 
for many libraries because the results lead to incomplete 
library collections and potential loss of access to government 
information,'' end quote.
    Yet in QFR #6, you testified, quote, ``GPO's Superintendent 
of Documents does not receive a list of all publications that 
are obtained from other sources than GPO. In practical terms, 
handling lists from thousands of agencies would be a 
substantial processing burden,'' end quote.
    Director, please help me understand and reconcile your two 
responses. The substantial processing burden you refer to seems 
like a core function of what SuDocs needs to be doing to ensure 
that all in-scope documents, whether it is electronic or 
tangible, make it to the FDLP.
    How do you propose to ensure that the depository libraries 
receive this information if it is possibly, according to your 
quote, maybe a burden for the GPO?
    Ms. Vance-Cooks. That is a really good question.
    One of the issues that we identified with the visits to the 
libraries is the fact that most of the information that they 
are asking for is digital, okay, and it is digital through our 
CGP. So, in other words, we just give them the titles and they 
have access to it.
    So that reference to the list, that is an outdated type of 
methodology, going back to what Chairman Harper said earlier 
about making sure that we look at parts of Title 44 that make 
sense and no longer need to be in Title 44, and that is one of 
them. The lists are just not practical because no one looks at 
lists anymore. It is all primarily digital.
    So I am trying to reconcile that. Perhaps we should not 
have written burdensome, but I am just letting you know that it 
is primarily digital.
    Mr. Davis. I look forward to working with you and the 
Chairman of this Committee to address the issues in Title 44.
    But also one last question is, I have some concern that 
maybe the agencies don't know what information could even be 
sent in the preferred format, you say electronically, to the 
FDLPs. How do you propose making sure that our agencies know 
that they can get this information to the FDLPs?
    Ms. Vance-Cooks. We are doing a lot of outreach, okay? We 
have a Doc Discovery Program. We reach out to agencies. We do a 
lot of web harvesting. We have a lot of initiatives to pull 
that data and that information into our CGP. Likewise, we do a 
lot of outreach to make sure that the agencies know this 
information is available. We send out circular letters. We 
reach out directly to the agencies. It just involves a lot.
    And when we talk about Title 44 reform, let's make sure we 
talk about whether or not we have the authority to enforce 
those kinds of things, because that part is kind of missing, 
because we now have moved towards digital.
    Mr. Davis. Thank you. Director, I appreciate you being 
here, your comments, and thanks for your responses.
    Ms. Vance-Cooks. Thank you.
    Mr. Davis. I yield back.
    The Chairman. The gentleman yield back.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for any followup questions he may have for 5 
minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    And I do have more questions regarding the apparent 
inconsistencies over time of reporting official time and union 
activities. And I appreciate Mr. Raskin also heading in that 
direction.
    Especially when you look at the OPM report of the number of 
per-employee bargaining unit hours is significantly higher in 
the OPM of 4.23 than the average of the other 62 agencies 
reported, which is only 2.88 hours. Apparently, we spent in 
taxpayer dollars $291,000, almost $300,000 of salary and 
benefits on union activities.
    But, because we need to move on because of time and I know 
your time is valuable too, Mr. Chairman, I will submit those 
questions for the record, and you can respond appropriately.
    [The information follows:]

                   ******** COMMITTEE INSERT ********

    Mr. Loudermilk. That way I can also move on to another 
area, kind of follow up on what my colleague Mr. Davis was 
asking regarding the Federal Deposit Library Program. And I 
asked you about this in a previous hearing. And this is in 
response to QFR #8 regarding some of the things you learned as 
you visited--and we appreciate you doing that--the FDLP 
libraries, as I know that you are required to do.
    And in there you quoted, ``Agencies do not submit or are 
not aware that they must submit documents to GPO for 
dissemination to deposit libraries.'' And as we have discussed, 
this leaves some very open areas. I mean, there are things that 
are unreported and not made in publication, and we understand 
that is a concern, and it leads basically to incomplete library 
collections.
    And I am sure you are familiar with this, the U.S. 
Government Manual. Isn't that amazing how thick? I know you are 
doing this digitally now, but just to think that this is 
basically the phone book for the Federal Government, just how 
massive this is. And this is just for the key agencies and 
executives and such in the Federal Government.
    So this is the 2013 edition. Now, did you become CEO in 
2012 or 2013?
    Ms. Vance-Cooks. 2012.
    Mr. Loudermilk. It was 2012.
    Ms. Vance-Cooks. I was acting, yes.
    Mr. Loudermilk. Okay. And so I know this was the year after 
you became CEO then. And as I said, it is electronic, which we 
appreciate very much, and so were a lot of trees thankful that 
we are doing that now.
    There are 440 agencies listed in the Code of Federal 
Regulations. How do we contact these agencies that are not 
responding and giving you the information that is needed to put 
in these publications? How are you currently contacting them to 
let them know that their documents are incomplete?
    Ms. Vance-Cooks. We have what is called an outreach effort. 
It is through our Discovery Program. It is through circular 
letters. We actually have staff dedicated to calling the 
agencies to talk to them. We actually have a web harvesting 
program whereby we just kind of crawl through the websites, see 
what kind of information is out there.
    We also work with a number of different Committees. We work 
with the agencies through the Interagency Council, which 
reports in to the GPO. We do everything we can to communicate, 
to be proactive, to explain it. But we don't have enforcement 
mechanism.
    Mr. Loudermilk. Who is ultimately responsible at these 
agencies to make sure that you get the information?
    Ms. Vance-Cooks. Well, according to Title 44, we are 
responsible for making sure that we get it. But a lot of the 
information is now digital, as you just mentioned. In fact, a 
lot of the information is actually born digital on the 
websites. So because of that, that is why we have a web 
harvesting program to crawl through and find it.
    Mr. Loudermilk. But at the agencies, I mean, you can't go 
in and just knock down their door and get their data, right? 
Somebody at that agency is ultimately responsible to respond to 
you and give you the information you are lacking?
    Ms. Vance-Cooks. Right.
    Mr. Loudermilk. Who is that?
    Ms. Vance-Cooks. The printing officers. We have printing 
officers whom we deal with in terms of the government agencies 
that procure printing from us.
    Mr. Loudermilk. Okay. So you have a printing officer. Who 
do they report to generally?
    Ms. Vance-Cooks. It just depends.
    Mr. Loudermilk. Is it usually an executive?
    Ms. Vance-Cooks. It could be. Sometimes it would be very, 
very low. They would report to someone else, who would report 
to someone else.
    Mr. Loudermilk. Who could make this happen?
    Ms. Vance-Cooks. I think that a number of us can make this 
happen. We need and we are trying very hard to communicate to 
everyone that this is a feature that is available.
    See, at some point people are thinking of this as a burden. 
It is not a burden. What we try to do is to explain to the 
agencies the benefit of having that information in the FDLP, 
because once it is in the FDLP, then that information is 
available to everyone, and it would seem to us that agencies 
would want their information to be disseminated.
    Mr. Loudermilk. Absolutely. Have you communicated this 
directly to the executives?
    Ms. Vance-Cooks. It is through a circular letter, sir, we 
do that through.
    Mr. Loudermilk. How many have you met with personally?
    Ms. Vance-Cooks. Have I met with them personally?
    Mr. Loudermilk. Yes, to explain this to execs. Because I 
would think that the department head of these agencies, whoever 
that is, could get this done. I mean, we are talking about 
information that the American people have a right to know.
    Ms. Vance-Cooks. I think you are right.
    Mr. Loudermilk. And I agree.
    Ms. Vance-Cooks. I agree.
    Mr. Loudermilk. How many have you met with personally to 
express the problem that you are having?
    Ms. Vance-Cooks. I have not met with many personally to 
talk about FDLP as a specific issue. We have what is called the 
Interagency Council. They meet once a quarter. These are the 
high-level printing officers who come to us. And we talk about 
a number of issues, including that.
    What I generally do is send out circular letters. They 
would go out. But I think it is a great idea.
    Mr. Loudermilk. I think, as a CEO, when I had a business, 
if I wanted to get something done with another business, I 
picked up the phone and I called. If I am working with another 
office here in Congress and from staff to staff we are not 
getting anything done, I pick up the phone and I call the 
Member. I would encourage you to take that leadership role in 
that.
    And I see I have got the red light on me. So, Mr. Chairman, 
I yield back.
    Ms. Vance-Cooks. Thank you so much. Thank you.
    The Chairman. The gentleman yields back.
    Again, Director Vance-Cooks, we thank you for your time, 
your dedication to your job, and we do look forward to working 
with you in the months and years ahead. And thank you for your 
hard work.
    Without objection, all members will have 5 legislative days 
to submit to the chair additional written questions for the 
witness, which we will forward and ask the witness to respond 
as promptly as she can so that her answers may be made a part 
of the record.
    Without objection, this hearing is adjourned.
    Ms. Vance-Cooks. Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 11:51 a.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
